No. 20-5731

In The Supreme Court of the United States

Brent L. Alford - Petitioner

vs.
Sam Cline, et al. - Respondent
PROOF OF SERVICE
I, Brent L. Alford, do sear or declare that on this date,

fUt-

((~-iG~zD
~~~ Z-O , as required

by Supreme Court Rule 29,1 have served the enclosed Motion For Rehearing or In The
alternative Transfer To The United States District Court, on each party in the above proceeding
or that party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States Mail properly addressed to
each of them and with First-Class postage prepaid, or by delivery to a third party commerical
carrier for delivery within 3 calendar days. The names and addresses of those served as
follows:
Toby Crouse, Counsel of Record for Attorney General, Memorial hall, 120 SW 10th Ave.,
Topeka, KS 66612.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

2020.
QJ>pjur\

RECEIVED
pr>v - b 2^
' *1" ;

